                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON . VIRGINIA 22202- 4704 

                                                                            JUN 2 5 2009

Chair, Board of Trustees
University of Dayton

Vice President for Finance and Administrative Services
University of Dayton

Audit Partner
Ernst & Young, LLP

SUBJECT: Report on Quality Control Review of the Ernst & Young, LLP Fiscal Year 2007
         Single Audit of the University of Dayton (Report No. 0-2009-6-006)

        We are providing this report for your information and use. As the cognizant Federal
agency for the University of Dayton we performed a review of the Ernst & Young, LLP single
audit and supporting work papers for the fiscal year ended June 30, 2007, to determine whether
the audit was conducted in accordance with Goverrunent Auditing Standards and the auditing
and rep0l1ing requirements of Office of Management and Budget (OMB) Circular A-I33,
"Audits of States, Local Governments, and Non-Profit Organizations," (OMB Circular A-133).
Our review of the audit of major programs was limited to the audit of the Research and
Development Cluster. Appendix A contains additional background, scope and methodology for
the review and Appendix B lists the compliance requirements applicable to the fiscal year 2007
audit period.

Background. The University of Dayton is an independent, educational institution located in
Dayton, Ohio. The Universitl of Dayton Research Institute performs basic and applied research
and development activities under industry and government contracts and grants. Approximately
90 percent of the University of Dayton's research and development activities are for
government-sponsored programs. The University of Dayton expended $129.4 million in Federal
awards for the fiscal year ended June 30, 2007 under Federal research and development and
student financial aid programs. Of the $129.4 million, $61.5 million was expended for research
and development awards, of which $41.4 million were Department of Defense programs.

Review Results. Ernst & Young did not fully comply with OMB Circular A-133 requirements
and auditing standards in the fiscal year 2007 single audit. We identified deficiencies in the
performance and documentation of audit procedures for three of the nine applicable compliance
requirements (Finding A). Ernst & Young did not comply with the Governmental Auditing
Standards reporting requirements because the report on internal control over financial reporting
did not contain a reference to the management comment letter issued to the University of
Dayton's Audit Committee (Finding B). Because of these deficiencies, additional audit
procedures were needed before Federal agencies could rely on the single audit to monitor and
manage Federal program awards. In addition, we identified several audit areas that require
enhanced documentation for future audits. These enhancements are discussed in the "Other
Matters ofInterest" section of this report. The University of Dayton did no! fully comply with
OMB Circular A-l33 requirements for the presentation of the Schedule of Expend itures of
Federal Awards. In addition, the Data Collection Form was not completed in accordance with
OMB Circular A-133 requirements and the Federal Audit Clearinghouse reporting instructions
(Finding C).

As a result of discussions with Ernst & Young throughout our site visit, Ernst & Young agreed to
immediately perform additional audit procedures to correct the deficiencies noted in our review
and to revise the fiscal year 2007 audit report as needed. Between August 7, 2008 and
January 14,2009, Ernst & Young provided our office with written and verbal explanations and
documentation of additional audit procedures performed. The additional audit work generally
complied with OMB Circular A-l33 requirements and provided sufficient evidence to support
the audit conclusions and opinion on the research and development cluster program. The results
of our review and Ernst & Young corrective actions are discussed in the Findings section below.

Findings
Finding A. Performance of Internal Control and Compliance Testing. The Ernst & Young
auditors did not perform adequate procedures to support the conclusions on internal control over
and compliance with procurement, suspension and debarment and compliance with cash
management and subrecipient monitoring requirements. As a result, the audit did not provide
sufficient and appropriate evidence to support the conclusions on internal control over
compl iance and the opinion on compliance over Federal research and development program
requirements. OMB Circular A-133 requires the auditors to obtain and document an
understanding of internal control over each applicable compliance requirement sufficient to plan
the audit to support a low-assessed level of control risk. The auditor is then required to identify
key internal controls and plan and perform tests of controls and tests of compliance sufficient to
support the opinion on Federal programs.

        Cash Management Compliance Testing. The Ernst & Young auditors did not
perform audit procedures to determine whether the University of Dayton complied with the
payment requirements in 2 CFR §215.22 for advance payments and payment requests for awards
using the reimbursement method. The University of Dayton received advanced payments for
approximately sixty percent of its awards under an advance payment pool agreement with the Air
Force. The remaining Federal awards were paid using the cash reimbursement method. The
auditors did not perform audit procedures to determine whether the interest earned on advances
in excess of $250 was reported and remitted to the appropriate agency as specified in
2 CFR§215.22. In fiscal year 2007, the University of Dayton received approximately $25
million in advanced payments which were kept in an interest bearing account.




                                                2

In addition, for awards funded using the reimbursement method, the auditors did not perform
audit procedures to verify whether payment requests were based on actual cash disbursements.

        Ernst & Young Corrective Actions. On November 12,2008, Ernst & Young provided
the Office of Inspector General with documentation of supplemental audit procedures performed
to support their conclusions on cash management requirements. Ernst & Young performed
additional testing of 25 reimbursement requests and verified that the payment requests were
based on actual cash disbursements. Ernst & Young also identified interest income of $19,320
and verified it was returned to the Department of Air Force. The auditors did not note any
exceptions.

        Procurement Internal Control and Compliance Testing. The Ernst & Young
auditors developed an understanding of internal controls and identified key controls for testing.
The auditors performed procedures to verify that procurements and subawards were not made to
suspended or debarred parties. However, the workpaper documentation did not include
sufficient evidence to support that Ernst & Young performed the planned testing of internal
controls and tested for compliance with Federal procurement requirements in 2 CFR §215.41
through §215.48. The regulations include the requirement that the University of Dayton have
procurement procedures to provide for full and open competition, and maintain procurement files
to include, at a minimum, the basis for the selection, justification for lack of competition when
competitive bids or offers are not obtained, and evidence to support the performance of a cost or
price analyses.

        Ernst & Young Corrective Actions. On November 12,2008, Ernst & Young provided
the OIG with documentation of supplemental audit procedures performed to support their
conclusions on internal controls over and compliance with procurement requirements. Ernst &
Young obtained a listing of 37 federally fimded equipment purchase transactions greater than
$25,000. Ernst & Young selected four transactions and reviewed the vendor contract files to
determine if the required Federal procurement documentation was contained in each file. The
auditors did not note any exceptions.

         In Ernst & Young ' s management response letter, the auditors state they performed
supplemental audit procedures and determined that the procurement, suspension and debarment
compliance requirement is not direct and material with respect to the research and development
cluster for fiscal year 2007. Therefore, a review of the University of Dayton ' s compliance with
the requirements of procurement, suspension, and debarment was not necessary. We have not
reviewed the workpapers that supports these statements. Fm1hennore, this information should
have been determined and documented in the workpapers during the planning phase of the audit.

       Subrecipient Monitoring Compliance Testing. The Ernst & Young auditors did not
perform sufficient audit procedures to test for compliance with 2 CFR 215.51 and OMB Circular
A-133 requirements to monitor sub recipient use of Federal awards. The workpaper
documentation did not evidence that Ernst & Young performed sufficient audit procedures to
determine that the University of Dayton adequately monitored subrecipient activities to gain
assurance that pass-tlu'ough awards were used for authorized purposes and that subrecipients


                                                3

complied with laws, regulations and award provisions and achieved performance goals. In
addition, there was limited documented evidence of performed procedures to determine that the
University of Dayton ensured subrecipients met OMB Circular A-I33 audit requirements and
took required actions on subrecipient audit findings, including evaluating the effect of any
findings on the University of Dayton's awards.

        Ernst & Young Corrective Actions. On November 12,2008 Ernst & Young provided
the Office of Inspector General with documentation of supplemental audit work performed to
support their conclusions on the review of subrecipient monitoring requirements. Ernst & Young
selected 8 pass-tlu'ough awards and verified that the University of Dayton monitored subrecipient
activity by reviewing progress reports, invoices and the most recent A-133 audit reports. The
auditors did not note any exceptions.

Finding B. Government Auditing Standards Reporting Requirements. The auditors did
not comply with Governmental Auditing Standards paragraph 5.09 reporting requirements
because the Report on Internal Control over Financial Reporting and on Compliance and Otlier
Mailers Based on tlie Audif a/the Financial Statements Pelfa rmed in Accordance with
Governlllent A uditing Standard~ did not include a reference to the October I, 2007 management
letter issued to the University of Dayton's Audit Committee. The management comment letter
communicated information technology system control deficiencies and recommendations for
improvements in system procedures and controls. Based on discussions with the Ernst & Young
audit manager, the omission was due to an incorrect interpretation of firm guidance relating to
types of information that should be communicated to the auditee.

        In Ernst & Young's management response letter, the auditors state that the control
deficiencies were insignificant. We did not see clearly documented evidence in the workpapers
that supports Ernst & Young's rationale for determining the significance of these deficiencies.
FUl1hermore, Government Auditing Standards require that sufficient detail be included in the
audit documentation to provide an experienced auditor who has had no previous connection with
the audit to ascertain from the documentation the evidence that supports the auditors' significant
judgments and conclusions.

Finding C. Presentation of Pass-through Awards in the Schedule of Expenditures of
Federal Awards and the Data Collection Form. The Schedule of Expenditures of Federal
Awards and Data Collection Form were not prepared in accordance with OMB Circular A-I33
requirements and Data Collection Form instructions.

        Schedule of Expenditures and Federal Awards. The University of Dayton did not
correctly prepare the Schedule of Expenditures and Federal Awards because the schedule did not
identify pass-through awards in accordance with OMB Circular A-I33 L.310 (b) I. OMB
Circular A-I33 requires that for the Research and Development Cluster, total Federal awards
expended be shown either by individual award or by Federal agency and major subdivision
within the Federal agency. The University of Dayton presented all pass-through awards received
as one line item in the Schedule of Expenditures and Federal Awards and provided details of


                                                4

individual awards in Schedule B to the Schedule of Expenditures and Federal Awards. However,
neither the Schedule of Expenditures and Federal Awards nor Schedule B grouped the
pass-tlll'ough awards by the Federal agency that funded the award. This information is required
to be provided to the University by the non-Federal entity that provides the pass-through award.

         Data Collection Form. The University of Dayton did not correctly prepare the Data
Collection Form because they did not identify the Catalog of Federal Domestic Assistance
number or the Federal agency prefix number for pass-tlll'ough awards received by the University
of Dayton. The University of Dayton identified all pass-through awards with a
"99 Miscellaneous" code. OMB Circular A-l33 L.320 (2) ix and the instructions to the Data
Collection Form require that Part Ill, Item 9 of the Data Collection Form include the Federal
agency Catalog of Federal Domestic Assistance number, or if the Catalog of Federal Domestic
Assistance number is not available, the two digit Federal agency prefix code associated with the
pass-through award. The "99 Miscellaneous" code should only be used for Federal agencies not
listed in Appendix 1 to the Data Collection Form instructions.


Recommendations and Management Comments

Recommendation 1.                      Wc recommend that thc Audit Partner, Emst &
Young, LLP:


       a,   Use the results of this quality controll'eview to strengthcn existing or
            implement additional quality control monitoring procedures to ensure that
            future single audits I'eports and wol'l<papers comply with Government
            Auditing Standards and the audit I'equirements of the Officc of Management
            and Budget CiI'culal' A-133 audit.

       b,   Revise the appl'opriate audit reports in the Reporting Package, to rcflect, at a
            minimum, the issuance of the managcment comment lcttcr and the complction
            date of the additional audit procedures,

       c,   Provide thc I'cvised Reporting Pacl<agc and signed Data Collection FOl'ln to the
            Univcl'sity of Dayton to file with the Federal Audit Clearinghouse,

Ernst & Young Comments: Ernst & Young 's comments were responsive and conform to
requirements; no additional comments are needed.


Recom mendation 2.                   We recommend that the Vicc President of Finance
and Administrative Sel'viccs, University of Dayton:




                                               5

        a. 	   Revise thc Fiscal Year 2007 Schedule of Expenditures and Fede.-al Awards
               according to Office of Managcmcnt and Budgct A-I33 rcquirements.
               Specifically, the Schcdule of Expenditures and Federal Awards should idcntify
               pass-through awards received by the appropriate Federal funding agency.

        b. 	   Revise the Fiscal YeaJ' 2007 Data Collection FOJ'ln according to Officc of
               Management and Budgct A-l33 requircments. Thc Data Collection Form
               should identify the Catalog of FcdeJ'al Domcstic Assistance numbeJ' 01' Fede.-al
               agency prefix numbcJ' fOJ' pass-through awards rcccived by thc University of
               Dayton.

       c. 	    File the J'evised Fiscal Year 2007 Reporting Pacl,age and signed Data
               Collection FOJ'm with the Federal Audit Clearinghouse and notify the
               Departmcnt of Defensc Office of JnspcctoJ' General upon completion.

University of Dayton's Comments: The University of Dayton's comments were responsive
and conform to requirements; no additional comments are needed.

        Other Matters of Interest. Ernst & Young needs to enhance the audit documentation of
the review of the Schedule of Expenditures and Federal Awards and the Reporting compliance
requirement. We had to obtain significant additional explanations from the audit manager in
order to conclude that there was sufficient evidence to suppo11 the audit conclusions and opinion
on these audit areas. Government Auditing Standards require that sufficient detail be included in
the audit documentation to provide an experienced auditor who has had no previous connection
with the audit to ascertain from the documentation the evidence that supports the auditors'
significant judgments and conclusions. Audit documentation should be appropriately detailed to
provide a clear understanding of its pUl'pose and SOUl'ce and should be appropriately organized to
provide a clear link to the findings , conclusions, and recommendations.

        We appreciate the cOUl'tesies extended to the audit staff. For additional information on
this report, please contact Ms. Janet Stern at (703) 604-8750 (DSN 664-8750).



                                               ~ If. .{\W'1~
                                             Carolyn R. Davis
                                             Assistant Inspector General
                                              for Audit Policy and Oversight




                                                6

Appendix A. Quality Control Review Process
Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-I33 establishes policies that guide implementation of the
Single Audit Act and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend at least $500,000 or
more in a year are subject to the Single Audit Act and the audit requirements in OMB Circular
A-I33 and therefore must have an annual single or progralll-specific audit performed under
Governmental Auditing Standards and submit a complete reporting package to the Federal Audit
Clearinghouse.

We reviewed the Ernst & Young fiscal year 2007 single audit of the University of Dayton and
the resulting reporting package that was submitted to the Federa l Audit Clearinghouse on March
31, 2008, using the 1999 edition of the "Uniform Quality Control Guide for the A-13 3 Audits"
(the Guide). The Guide applies to any single audit that is subject to the requirements ofOMB
Circular A-133 and is the approved President's Council on Integrity and Efficiency checklist
(now referred to as The Council ofInspectors General on Integrity and Efficiency) checklist for
performing single audit quality control reviews. We performed the review from July 2008
tlU'ough June 2009. The review focused on the following qualitative aspects of the single audit:

            •     Qualification of Auditors,

            •     Independence,

            •     Due Professional Care,

            •     Planning and Supervision,

            •     Internal Control and COlllpliance testing,

            •     Schedule of Expenditures of Federal Awards, and

            •     Da'ta Collection Form.




                                               7

Appendix B. Compliance Requirements 



      OMB Cil'cula." A-133 Compliance           Applicable   Not Applicable
               Requit"ements


Activities AllowedlUnallowed                        X

Allowable Costs/Cost Principles                     X

Cash Management                                     X

Davis-Bacon Act                                                    X

Eligibility                                                        X

Equipment and Real Property Management              X

Matching, Level of Effort, Earmarking               X

Period of Availability of Federal Funds             X

Procurement, Suspension, and Debarment              X

Program Income                                                    X

Real Property Acquisition and Relocation                          X
Assistance
Reporting                                          X

Subrecipient Monitoring                            X

Special Tests and Provisions                                      X




                                           8

Ernst & Young, LLP Comments 



                                                                                               ErnS! & YOUlIg Llr
  111111111111111111111111111111 111111111 11111 "."   §!1 ERNST& YOUNG                        J l OOlrun' inltonC~ "l er
                                                                                               <II SOl(dh lti9ll !>lI(el
                                                                                               (o!urNJ!ll.. Oh\<l4JlI5
                                                                                               rf~   6Jt\ 22·1 5670
                      JUlie 8, 2009                                                            ra.: 614 2)2 19)9
                                                                                               ~




                     Ms, Cnro Jyn D:.vis 

                     Assistll1lt Inspector Geneml for 

                     Aud it Po licy and Oversight 

                     Inspector GCllcm J 

                     United States Dcprutmcnt of Defense 

                     400 Army Nav)' Drive (Roolil 833) 

                     Arlington, Virginia 22202·4704 


                                          Response to RCp0l1 on Quality Contro l Review of the Ernst & Young
                                          LLP Single Audit or the University of DaytOil fo r the Fisca l Year Ended
                                          June 30. 2007

                     Denr Ms. Davis:

                     We Ilrc pleased to provide our respome to the Quolit)' Control Review ("QCR") of the
                     OMD Circular A- 133 Single Aud it conducted by Ernst & Young LLP ("E&Y") under the
                     Federa l Single Aud it Act oml OM ll Circu lar A· 133 of thc University of DlIylon thr the
                     fisclIl year Clldc(1 JUIIC 30. 2007.

                     As RII indcpendent /luclitor. our ovcrridiuH objectivc is to make ccrtRill thm nil flspects of
                     our Ilu<i iling nJUI CJua lity co ntro l processes ,In: of high qllal ity. This fOCllS 011 CJlIa lity
                     scn'es the interest of the Onlccs of the In spector Genera l of the Federa l Deparlments 1111<1
                     Agencies Ihlll re i>' 011 1Ilidits pcr formcd under the Fcdcml Sing le Audit Act mui bcne lit s
                     Ihe Firm.

                     Wc lIppreciale your commcnts from the QCR, flnd we lIcknowlcdge that )'O tlr fi ndings nrc
                     helpful il l high lighting areas for impro\·ement and nre being used to continue to enhance
                     our audit processes. For example, in ordcr to promote consistenc), within the firm
                     regarcl ing the testing of certnin compliallce requirements, we phm 10 widely distribute
                     slnl1dllrd cOlllpliullCC testing temp illtes for the vnriOlls complin ncc requiremcnts cited ill
                     youI' QCR report tlHl l lllorc close ly correlalc 10 the suggested lIlidit procedures in 1'011 [ It
                     of the OMB Cirelll(1I' II·} 33 CompJim/{:e SlIpplelllclIl.

                    Concurrent with yOIll· c;>;:ecution of the QCR. our I1l1dit documcntation rmd Jl..oce(i ll"e.~
                    (nppropriatcly datcd) WCfe cnhflllccd in eerloin orcas to make it more useful 10 you in
                    yom role ns the Un ivcrsity of Dayton's eogn izlIlll fedem l ngency. We npprccinte your
                    ncknowledgcment that such work genera lly eOUlplied wit h OMB Cireulnr A· I33 nnd
                    provided sufficient evidcnce to SUPl>Olt the lIudit conclusions mul opinion 011 the resc:lreh
                    Ilnd developmcnt cluster progrlllll. No add itiona l fi ndings regarding the Univcrsity of
                    I)nyton's compliance with npplicnblc requirements were noted. alltl the ovel"n ll
                    conclusion remaincd IIIlchnnged. 0uI" repolt for the (\(I(lit is being rcissued.




                                                                            9

Response to Repolt 011 Quality Control Review of the                             June S, 2009
Ernst & Young LLP Single Audit oflhe Univers ity of Dayton                        Page2of5
for the Pisenl YCflr Ended Jlinc 30, 2007

We hnve SUllllllllrizecl below our responses to thc findiugs, rccollllllcmlalions, other
matters ofiHlerest Rnd relnted review results noted in yom QCR rcpolt. In all cases, the
malleI'S noted reflect initial observations that were ·resolved subsequent to our work
togcthel".

Fintling A. Pel'formance of Illtenlal Control nIHI COIllI)linnce Testing

The E&Y nuditors did not perform ndeqlll'lte procedures 10 support the conclusions on
inlcml'll control over and complinnce with Procurcment, Suspension ami Deu,trlncnl
rcquirements nnd complJi'\llce with Cnsh MnnflgcllIcnt and Suurccipient Monitoring
requirements. lis n result, Ihe mldit did not provide sufficient and opproprifltc cvidcnce La
SUppOlt the report on internal control over cOllipliance and the opinion 011 compliance
with Fedeml rcsellreh find development progrmn rcquir~IllCtlls. The report further notes
inslfltleeS in which limited cvidcnee 10 SltPPOlt I)rocedures performed WilS initially
refieeted in thc working )lflpers.

E& Y R('.~Jlollsc to fthl(ling A

E& Y nesJlonse 10 Procul'ement Iuterlml Control 1I11d Compliance Testing

Itl retrospect, Proeltremcnt, Suspellsion and Debarment wos nrguabl)' not a direct and
tllfltcrilll complinnce requirement with respect to the research and dcvelopment progmm
due to the relativel), low applicable expenditures. NotwiLhstnnding this ]loint, we
sllpplemcnted OUl' procedures ond dOC\ltllCllllltioll to !\ddress this matter,

To the cxtent tlwt procufC ment is not n dircct and material compliance requirement,
illtcl'tml control testing nnd compliflllce audit procedures did 1I0t have to be performed for
procurement with rcspcet to the rescilrch nnd developllIent cluster major progt'lltll. We
acknowledge Uliit we shollid IU'I\'e corrcctly mnde lind documented th<lt dctennirmtion
whcII plantling thc (Iudi!.

The component of fiscal ycar endcd June 30, 2007 resenrch and developmcnt
expcm[itures relfltcd 10 pl1l'chascs of o\,el' 525,000 foJ' which procuremcnt complilltlce
requirements flppl), is only $2,423,114 or 3,9% oj' the fcdcml expenditures on thc
Schedule of ExpelHlitltrcs of Federal IIwords ("SErA") for l'ese<lrch nnd devi;lopment
based on the University of D<I)1011 supplicd sprc..1dsheet.

E...~Y Ucspousc to Cflsh M:ulagl.'llIcnt and SlIbl'ecipicnl 1\1onilol'ing Comillifince
Testing

Wc supplementccl our doeumcntntiOIl alld proccdures to address these matters.




                                                   10 

 Response to RCjlOft on QU:llity COlllrol Review of thc                                Jllile S, 2009
 Emst & Young LLP Single Audit of the University ofDnyton                                Pnge30f~
 tor the Fiscnl Year Ended June 30, 2007

 Finding B. Govcrnmcnt Auiliting Stnnil:mls Reporting ltelluirclllcnfs

The auditors did not comply with GAS ]>ilnlgrnph 5.09 rcpoJ'tillg requircmcnts lx:causc
the Report on Internal Control OVCI' Financial Repolting nnd Other MOlters Bftscd on an
Audit of the Fin:lnciol Sintemcnls Performed ill Accordance with Government Auditing:
Standards did not include a reference to the Ociobcr 1,2007 mnnilgemciltiettel' issued to
the University of Dayton's Audit Committce. The management comment lettel'
comlllulllcated information technology systcm conlrol deficiencies and recolllmendations
for improvemenls in system procedures mut controls. Ihscd on discussions with Ihe
E&Y audit mannger, the omission was due to nn incorrect intcrpretntion of finn guidanec
relating to types of in/ormation that should be COJtllllltilicatcd to thc nuditec.

E ...'-:.:Y Uespolise to Finding B

All ofthc items in the mitnagement Ictter fire insignificant control (Ieficiencies relnted 10
infonrmtion technology controls. Control deficiencies tlUl( nre not considered significant
deficicncies or material wcnkncsses arc by their definition considered insignificmll
eOJltroJ deficicncies that have lin illcollsequentirll cITect on Ihe financinl statements.
Control deficiencics that hnve nn inconsequcntial eni!ct on the financial statements ore
1101 required to be COlllfllllllicaled ill writing ill the fllallagement leiter flS it is n mattcr of
professional judgment !IS to how nuditors communicate these maHcrs. Wc voluntndly
chose to rep0i1 these items in the management leiter to thc University of Dayton. We
acknowledge Ih1l1 we could have documented in the working papcrs Ollr rntionale for why
th~e cOlltrol deficiencies werc not slgnilicnnt deficiencies find material weaknesscs in n
clcMel' f.1shion. Notwithstanding the conclusion that such mattcrs did lIot risc to thc level
of a significl1llt deticicney, we h.we illcludcd a reference in our report on rcisslInncc to
such manugemcnt leiter.

We wish to nole Ihat while the lllililoger is an integral port of out' lIudit tcam, she (1i(1 not
speak for the Finn, and she was cleady lllistoken in indkating that our lack ofa refcrence
to Ihe mmmgcment letter wos n misinterpretation of Firm policy ns you assert.

E&Y Rcsllonse to OthCI' Moilers of lulcn'!!1

Wc concur with the comment Wc ngrcc 10 cnh:lJlce the audit doclllllcntfition of Ihe
review of the SEPA and Ihe rehlted RCI)()]ting Compliancc requirement. ]lle.1Se nole that
issues with respect to the auditor's documentation oftheil' audit proccdures with respect
to the SEFA Wi'S a common deficiency in the Prcsident's Council for Intcgrity flnd
Efiiciene), ReJlort 0/1 Notional Sillgle Amlit Sampling Project Ihnt \vns issued on JUIIC 21,
2007. As 11 result, the Alel'A cstablishcd a task force cntitlcd SEFA Reportillg ISSlies.
E&Y Ims been fictively monitoring the neti.,.ities of this tnsk force. The tflsk toree is
cxpectcd to iSSlle an iIluslrnti.,.c nudi! progtllill to llssis( fillditors in docwnenting the
procedures pcrformed on the SErA. Subsequent to its isslInncc t E&Y rlmieipales thnt it
will integratc this nudit program into our Firm guidance wilh respect to 1K'I'forming OMB
Circular 11.- J 33 nudits.




                                                      11 

Response 10 RepOit on QUlI li ty COlllro l Review of the                          J\IIlC 8, 2009
ErnM& Young LLP Single A\ldil of ille Ulliversily ofDilylon                          Pnge 4 ors
for the Fiseill Year Emled JUlie 30, 2007

E& V   Hcspollse to Rceollllllellilntion 1n

We Agree with the recommendnt ion. We wish to 1I0le Ihilt E&Y has nn established
£l1mlity cOlllrol monitoring process for Office ofMnnagcment nnd Budget Circular "-133
/ludil repOits nod work p"pers 10 ensure thnt these l1UOilS comply wil h 011 nppltcable
professiona l slnndords.

R&Y conlinllo11sly evaluates our <lulliity conlrol monitoring J)\'ocess to determine that
Single Aud ils comply with Govcmmenl Auditing Stnndnrds and thc audit requiremcnts of
the Office of Manngelllcnt :\lul Uutige! Circu lar A·133 A1Idit. Some nspecls of th i~ prQccss
nrc:

   An anlllllli internal inspection progrnm (Assurance Quulity Review or AQR) thot
   :lssesses the Cj\mlity of our oudit work for a cross-sec tion of engogc l11ents, which
   includes Single Audits.        As 0 rcquirement of Illemhership in the AICPA
   Governmental Audit Qunlity Ceiller, Singlc Audits nrc gh'cn specific focus in our
   AQR progmm fllld AQRs of Siuglc Audit s flr~ pcrforme{1 by ]'eviewer~ wilh deep
   expertise [n Sing le Aud its, The objective of thc AQR progrmn is to cVIlJunte thc
   desigu nlld operAting cOCctlvclless of the firm 's qUfllity control policies And
   procedures for our accoullting ond nudlling practice. The AQR program Il lso Rids our
   efforts 10 conl imlc to idenlify arcns where wc C:lll improve. our performance or
   enhnnee our policies (lUd procedures.

   Substantial train ing specific to Single ,\udils tilat goes beyond the continu ing
   profcssional education rcquircmcnts of GOl'I!l"IIlIIen/ Auditillg Siondards. Annllnll)"
   E&Y holds n une tin)' Gu\'ernmenl Auditing Stf1l1dards nud A- 133 techn icnl update.
   Federal ngeuey inspector genel'lll olTIcia ls routinely spenk ntthcsc uptimes 011 matters
   of in teres I nud QCR obser\'nlions wit h resJlect 100MB Circular 1\-133 lludils. E:leh
   SIlU- II I\!/\ in thc linn nlso holds at IC:lsl one annual elnssroom tmining cntitled
   "Performing A Go\'enllllcllI A\lditing Sl:lIIdnrds Rnd OMB Circular A-133 Audit".
   The fin n nlso IlnS on extensive liurar)' ofjust-in time web based programs on vodoll!
   aspects of the Single Audit. These include four two·hour web based learning
   pl'Ogmrns with respect to Ruditing [ildirect costs under the vnriotls OMB cost eirettl:lfs
   in cluding one two·hour course on ouditing iudircet costs for colleges find universities
   under OMIl CircIII!!!' A-21.

   A strong firm comm itment to inform nil prolcss iollnls wo rking on Single Audits of
   changes to rcJevilllt re<\uireme l1t s nnd stoudnrds throllsh Ihe distribution of n 11I0nthly
   fedem l nwards tcclmicn l newslctter to over J 100 profe.ssionills perrorming
   Gover/un ent Amliting Sialld!!nls ond Siugle Audils.               These ncwsletters Arc
   supplemented by se"em \ conference co lis cileh ycar on emcrging Singl!.! Audit topics
   lmd \lpdates.




                                                   12 

Response to Report on Quality Control Review of the                               JUlie 8, 2009
Ernst & Young LLP Single Audit orthe Univcrsity ofDOlyton                           PngeSof5
for tho Fiscal Year Ended June 30, 2007

10:& Y Rcspollso to ReCOl1llUCndnlioll 13 (continued)

    An E&Y protcssionalnnd regutntOly n:'luircJllcnt thaI an cxecutive independent of
    thc audit team reviews oil the audit rep0l1s contained in the Single Audit reporling
    packogc ond performs ccrtain olher procedures prior to isslIance of the reporting
    package.

E&Y RCSPOI1SC     to RccollllnClldaliOIl Ib

We ngtec with the recommcndation.

E&-Y Hcspollse to Ut'col1llUCmllltionlc

We agree with the rccommclldatioll.


We flppreciatc thc oppoltunity to provide Dill' response to [he QCR Report and would
welcomc discussion ofnny matters that rC'luire fmther explrlllfltioll wfore you fill(lli7.c the
results of yom QCR. Please feel fi'cc to c(lil tIlC (It 614 232-7450 or e-mnil me at
cmig.llwrslmll@c),.com

                                                       Respcctfully submitted




                                                       Cmig A Marshall
                                                       PArtller




                                                   13 

University of Dayton Comments 





     April 22, 2009


     Ms. Carolyn R. Davis
     Assistant Inspector General
        for Audit Policy and Oversight
     Office of Audit Policy and Oversight
     Room 833
     400 Anny Navy Drive
     Arlington, VA 22202

     Dear Ms. Davis:

     We have received your draft report, dated March 26, 2009, regarding the quaJity control review
     ofUIe Ernst & Young LLP PY 2007 Single Audit of the University ofDaytoD. We have
     reviewed the comment pertinent to the University of Dayton regarding the additional detail
     needed on the Schedule of Expenditures of Federal Awards and in the Data Collection Form for
     fisca1 year 2007 and have updated both documents as requested. We will file the revised Data
     Collection Fonn and audit report with the Federal Audit Clearinghouse once we have received a
     report with tbe revised schedules from our auditors.                                         .


     Sincerely,

       ;J~
      Thomas E. Burkhardt
      Vice President for Finance
     ,and Administrative Services



     cc: Felicia M. Fuller




                        VICE PREsmaIT roll FINANCE AND ADMINISTRATIVE SERVICES 

                                    JOOCollege Park Dayton, Ohio 45469· 1660 

                                            Telephone (937) 229·363 1 





                                                           14 

